Office of Inspector General

September 11, 2008

MEMORANDUM

TO:    	       USAID/West Bank and Gaza Mission Director, Howard Sumka

FROM: 	        Regional Inspector General/Cairo, Lloyd J. Miller /s/

SUBJECT:	      Information on Status and Results of the First 120 Financial Audits of
               USAID/West Bank and Gaza Activities in Accordance with the Statutory
               Requirements of the Appropriations Acts of 2003, 2004, 2005, 2006 and
               2007 (Report No. 6-294-08-001-S)

This memorandum transmits our final report on the status and results of financial audits
of USAID/West Bank and Gaza activities in accordance with the statutory requirements
of the appropriations acts of 2003, 2004, 2005, 2006, and 2007. This is not an audit
report, and the report does not contain suggestions or recommendations. In finalizing
our report, we considered your comments on our draft and have included your response
in its entirety in Appendix II.

I appreciate the cooperation and courtesy extended to our staff throughout the survey.




                                                                                         1
BACKGROUND 

The Consolidated Appropriations Resolution of 2003, the Consolidated Appropriations
Act of 2004, the Consolidated Appropriations Act of 2005, the Foreign Operations,
Export Financing, and Related Programs Appropriations Act of 2006, and the Revised
Continuing Appropriations Resolution, 2007, included the following requirement.

         The Administrator of the United States Agency for International
         Development shall ensure that Federal or non-Federal audits of all
         contractors and grantees, and significant subcontractors and subgrantees,
         under the West Bank and Gaza Program, are conducted at least on an
         annual basis.

To fulfill this requirement, each of these appropriation acts states that USAID Office of
Inspector General may use up to $1 million of the funds appropriated for audits,
inspections, and other activities.

To help USAID meet its expanded audit requirements under the above legislation, the
Office of Inspector General has implemented a program to audit annually USAID’s
contractors and grantees, and significant1 subcontractors and subgrantees, that receive
USAID funding for the West Bank and Gaza program. This is the fourth report issued for
the financial audit program. The Office of Inspector General issued the first report on the
first 30 audit reports on March 28, 2005,2 the second for 60 audit reports on August 15,
20063 and the third for 90 audit reports on April 26, 20074.

SURVEY OBJECTIVE
We conducted this survey as part of the Office of Inspector General’s audit plan for fiscal
year 2008 to answer the following question.

•	 What are the status and results of the first 120 financial audits of USAID/West Bank
   and Gaza activities in accordance with the statutory requirements of the
   appropriations acts of 2003, 2004, 2005, 2006 and 2007?




1
  The threshold for "significant" was $100,000 at the beginning of the program in 2003. We
changed the threshold to $200,000 in 2005, and then we changed the threshold to $300,000 in
2006.
2
  Report No. 6-294-05-002-S, “Information on Status and Results of the First 30 Financial Audits
of USAID/West Bank and Gaza Activities in Accordance with the Statutory Requirements of the
Consolidated Appropriations Acts of 2003, 2004, and 2005,” March 28, 2005
3
  Report No. 6-294-06-002-S, “Information on Status and Results of the First 60 Financial Audits
of USAID/West Bank and Gaza Activities in Accordance with the Statutory Requirements of the
Consolidated Appropriations Acts of 2003, 2004, 2005, and 2006,” August 15, 2006
4
  Report No. 6-294-07-001-S, Information on Status and Results of the First 90 Financial Audits
of USAID/West Bank and Gaza Activities in Accordance with the Statutory Requirements of the
Consolidated Appropriations Acts of 2003, 2004, 2005, and 2006,” April 26, 2007


                                                                                              2
DISCUSSION

As of July 14, 2008, USAID had procured 200 financial audits, and the Office of
Inspector General had issued 120 final audit reports. Appendix I provides a list of these
120 final reports. As required by the appropriations acts, USAID is procuring additional
audits in fiscal year 2008.

Questioned Costs
As shown in table 1, the first 120 financial audits resulted in $6.3 million in questioned
costs out of $285 million audited. Of the 120 audits, the first 90 audits resulted in
questioned costs of $4.8 million while the next 30 audits resulted in $1.5 million in
questioned costs.

                               Table 1: Questioned Costs

                  Unsupported5          Ineligible6
    Reports        Questioned          Questioned          Questioned          Audited
    Issued           Costs                Costs              Costs              Costs
        1-30           $232,742           $1,779,369         $2,012,111        $50,490,616
       31-60           $303,664              $544,329          $847,993        $84,367,802
       61-90             $18,602          $1,914,737         $1,933,339        $74,093,312
      91-120           $403,059           $1,084,171         $1,487,230        $75,875,358
       Total           $958,067           $5,322,606         $6,280,673       $284,827,088

The total of $6.3 million in questioned costs were 2.2 percent of the total audited costs.
The questioned costs represent 4.0 percent for the first 30 audits, 1.0 percent for the
second 30 audits, 2.6 percent for the third 30 audits, and 2.0 percent for the fourth 30
audits as shown in chart 1 below. Seventy-two of the 120 reports had questioned costs.

           Chart 1: Questioned Costs as a Percentage of Audited Costs


    8%
    6%
               4.0%
    4%                                         2.6%                              2.2%
                                                                2.0%
    2%                        1.0%
    0%
               1 - 30        31 - 60          61 - 90         91 - 120         Average
                                         Reports Issued



5
  Unsupported questioned costs are costs which lacked adequate documentation or required prior 

approvals or authorizations. 

6
  Ineligible questioned costs are costs that were unreasonable, prohibited by the agreements or

applicable laws and regulations, or were not program related. 



                                                                                             3
Reportable Conditions in Internal Control
and Material Instances of Noncompliance
In addition to questioned costs, the 120 financial audits disclosed 67 reportable
conditions in internal control and 188 material instances of noncompliance with
agreement terms and applicable laws and regulations. Six of the 120 audits disclosed
40 of the 67 reportable conditions and 11 of the 120 financial audits disclosed 71 of the
188 material instances of noncompliance. As shown in table 2, the first 30 audits
reported 73 reportable conditions and instances of noncompliance, the second 30 audits
reported 28, the third 30 audits reported 65, and the fourth 30 audits reported 89
reportable conditions and instances of noncompliance.

                Table 2: Number of Reportable Conditions in Internal Control and Material 

                                     Instances of Noncompliance 


                 Reports         Reportable Conditions in   Material Instances of
                 Issued             Internal Control7        Noncompliance8                 Total
                        1-30                28                        45                     73
                      31-60                  5                        23                     28
                      61-90                 19                        46                     65
                     91-120                 15                        74                     89
                       Total                67                       188                     255

As shown in chart 2, the average number of reportable conditions in internal control and
material instances of noncompliance was 2.1 per report for the first 120 audits—an
average of 2.4 instances for the first 30 audits, 0.9 for the second 30 audits, 2.2 for the
third 30 audits, and 3.0 for the fourth 30 audits. Seventy-two of the 120 reports had
either reportable conditions or material instances of noncompliance.

            Chart 2: Average Number of Reportable Conditions in Internal Control and 

                     Material Instances of Noncompliance per Report Issued 



                5
                4
    Instances




                                                                     3.0
                3        2.4                          2.2                             2.1
                2
                                         0.9
                1
                0
                        1 - 30         31 - 60      61 - 90       91 - 120         Average
                                                 Reports Issued


7
  Reportable conditions in internal control relate to significant deficiencies in the design or

operation of internal control that could adversely affect the recipient’s ability to record, process,

summarize, and report financial data. 

8
  Material instances of noncompliance relate to noncompliance with agreement terms and

applicable laws and regulations that could have a direct and material effect on the audited

statement of the organization. 



                                                                                                    4
CONCLUSION 

This report provides the status and results of the first 120 financial audit reports of
USAID/West Bank and Gaza activities conducted in accordance with the statutory
requirements of the appropriations acts of 2003, 2004, 2005, 2006 and 2007. We plan
to periodically issue status reports, which will report on cumulative and comparative
results over time.




                                                                                     5
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/West Bank and Gaza provided additional helpful
information on the status of the program, including the status of recommendations, the
status of questioned costs, examples of questioned costs, and examples of reportable
conditions in internal control and material instances of noncompliance. For example,
USAID/West Bank and Gaza provided data that showed:

•	 For the fourth 30 audit reports that were released to the Mission, 18 of these reports
   included 34 recommendations; 17 recommendations were related to questioned
   costs, and 17 were related to internal control and compliance issues.
•	 For the status of the questioned costs of $1,487,230 for the fourth 30 audit reports,
   $431,353 were costs disallowed and collected from recipients, $785,647 were costs
   allowed by the Mission, and $270,230 were costs outstanding pending final
   determination.
•	 Examples of questioned costs included over billing, noncompliance with source and
   origin requirements, and lack of prior USAID approval of procurement actions.
•	 For the status of the 17 recommendations relating to internal control and compliance
   issues, in 15 cases the Mission agreed with the recommendations and took
   corrective actions, in 1 case the Mission found that the contractor was in compliance
   with the agreement terms and applicable laws and regulations, and in 1 case the
   Mission is in the process of making a management decision.
•	 Examples of reportable internal control conditions and material instances of
   noncompliance included improper compliance with source and origin requirements,
   noncompliance with Acquisition and Assistance Policy Directive 02-04,
   “Implementation of Executive Order 13224—Executive Order on Terrorism
   Financing”, weak accounting system and controls, and lack of monitoring of sub-
   recipients.

USAID/West Bank and Gaza said that based on the materiality of the questioned costs
and the general findings on internal controls and compliance, the risk level according to
the audits appears minimal. We neither agree nor disagree that the risk level appeared
minimal. Assessing risk needs to account for both internal and external factors, some
being outside the span of control of management. Examples of outside factors include
significance and sensitivity.

USAID/West Bank and Gaza said that the Mission was taking proper steps to ensure
compliance by its contractors and grantees. The Mission also said that it was taking
timely actions to ensure that management decisions were reached and that outstanding
recommendations were timely addressed and closed. We agree and appreciate the
Mission’s collaboration in ensuring that outstanding recommendations are timely
addressed.




                                                                                       6
                                                                                    APPENDIX I


                   Summary of West Bank and Gaza First 120 Financial Audits

                                                                                             Reportable
                                                                                            Conditions in
                                                              Total        Total        Internal Control and
                                                            Questioned    Audited        Material Instances
  #     Report Number               Recipient                 Costs        Costs         of Noncompliance



        See footnote 2
1—30    on page 2        Reports 1—30 Sub-total              $2,012,111   $50,490,616            73
        See footnote 3
31—60   on page 2        Reports 31—60 Sub-total              $847,993    $84,367,802            28
        See footnote 4
61—90   on page 2        Reports 61—90 Sub-total             $1,933,339   $74,093,312            65
                         Palestinian Tractor and
 91     6-294-07-024-N   Equipment Co.                              $0      $475,181                8
                         Young Men’s Christian
 92     6-294-07-025-N   Association                            $1,120     $1,783,128               0
 93     6-294-07-026-N   Alkhiesi Company                           $0       $63,074                8
                         Engineering Center for Heating
 94     6-294-07-027-N   and A. C. Company                          $0      $240,979                6

 95     6-294-07-028-N   Chemonics International Inc.          $98,332    $14,031,468               5
 96     6-294-07-029-N   Palestinian Trade Center             $283,244     $2,824,442               9
 97     6-294-07-030-N   Alkhiesi Company                           $0      $389,407                8
 98     6-294-07-031-N   Development Alternatives Inc.        $152,777     $2,850,424               1
 99     6-294-07-032-N   Ministry of Finance                        $0    $20,000,000               0
 100    6-294-07-033-N   Financial Markets International            $0      $708,390                1
 101    6-294-07-034-N   East Jerusalem YMCA                        $0      $941,897                2
 102    6-294-07-035-N   Care International                         $0     $2,618,007               2
                         International Orthodox Christian
 103    6-294-07-036-N   Charities                             $29,283      $693,445                6
                         International Orthodox Christian
 104    6-294-07-037-N   Charities                            $431,482     $1,971,421               9
 105    6-294-07-038-N   DPK Consulting                        $58,901      $632,953                3
 106    6-294-07-039-N   American Near East Refugee                 $0     $2,683,879               1
 107    6-294-08-001-N   InterBuilMat Inc.                          $0     $2,179,778               1
 108    6-294-08-002-N   Corcel Corporation                         $0     $4,358,462               1
 109    6-294-08-003-N   Corcel Corporation                         $0      $598,383                1
 110    6-294-08-004-N   Financial Markets International            $0      $631,588                0

                         America-Mideast Education and
 111    6-294-08-005-N   Training Services                     $52,465      $238,034                6



                                                                                               7

                                                                                 APPENDIX I



                                                                                          Reportable
                                                                                         Conditions in
                                                          Total         Total        Internal Control and
                                                        Questioned     Audited        Material Instances
  #     Report Number               Recipient             Costs         Costs         of Noncompliance
                         American Jewish Joint
 112    6-294-08-006-N   Distribution Committee                 $0        $175,991               0
 113    6-294-08-007-N   Chemonics International Inc.       $12,352     $4,724,713               1

 114    6-294-08-008-N   Chemonics International Inc.            $0     $1,536,069               0
 115    6-294-08-009-N   Carana Corporation                $269,659     $3,560,652               4
 116    6-294-08-010-N   Palestine Trade Center                  $0       $352,463               0
                         Academy for Educational
 117    6-294-08-011-N   Development                         $7,641       $823,695               3
                         Agricultural Cooperative
                         Development
                         International/Volunteers in
                         Overseas Cooperative
 118    6-294-08-012-N   Assistance                         $24,465     $1,575,904               1
 119    6-294-08-013-N   Massar Associates                      $0        $623,068               0
 120    6-294-08-014-N   Ministry of Finance                $65,509     $1,588,463               2
91-                      Sub-Total
120                      (Reports 91—120)               $1,487,230    $75,875,358            89
                         Grand Total
1-120                    (Reports 1-120)                $6,280,673 $284,827,088             255




                                                                                            8

                                                                                    APPENDIX I




MANAGEMENT COMMENTS

DATE:          August 28, 2008

TO:            Lloyd J. Miller, Regional Inspector General/Cairo

FROM:          R. David Harden, Acting Mission Director

SUBJECT:       Information on status and results of the first 120 financial audits of USAID West
               Bank and Gaza activities in accordance with the statutory requirements of the
               Appropriations Acts of 2003, 2004, 2005, 2006 and 2007. (Report No. 6-294-
               08-00x-S)

Reference:     Miller / Sumka memorandum dated 08/19/2008



USAID/West Bank and Gaza would like to thank the Regional Inspector General/Cairo (RIG)
for their status report regarding the results of the first 120 financial audits of USAID West Bank
and Gaza activities. We have reviewed the subject report and have the following comments
with regard to the additional 30 audits covered by this report:

Of the 30 audit reports that were released to the Mission since the last status report, 18 reports
included 34 recommendations; 17 recommendations were related to questioned costs and 17
were related to internal control and compliance issues. 27 recommendations have been closed
by M/CFO/APC. A management decision has been reached with RIG for seven
recommendations which are pending final action. The Mission is in the process of drafting the
Contracting Officer’s determination for the remaining six recommendations and one
recommendation was sent to APC for closure.

Regarding questioned costs in the total amount of $1,487,230, the status of these costs is as
follows:

                        91 - 120

                         431,353      Costs disallowed and collected from recipients
                         785,647      Costs allowed by the Contracting/Agreement Officer
                         270,230      Costs outstanding pending the Mission reaching a
                                      management decision with RIG
                     $ 1,487,230      Total




                                                                                                   9
                                                                         APPENDIX II


Examples of questioned costs (due to lack of documentation or ineligibility) included
over- billing, noncompliance with source and origin requirements, and lack of prior
USAID approval of procurement actions.

The status of recommendations relating to internal control and compliance issues is as
follows:

               15    Contracting/Agreement Officer agreed with the recommendations
                     and corrective action has already been taken or is in process.
                1    Contracting/Agreement Officer found that the contractor was in
                     compliance with the agreement terms and/or applicable laws and
                     regulations and there were no internal control deficiencies.
                1    Contracting/Agreement Officer is in the process of making a
                     management decision.
               17    Total Recommendations

Examples of reportable internal control conditions and material instances of
noncompliance included improper compliance with source and origin requirements,
noncompliance with AAPD 02-04 “Implementation of E.O.13224 – Executive Order on
Terrorism Financing”, weak accounting system and controls, and lack of monitoring of
sub-recipients.

Based on the relative immateriality of the questioned costs and the general findings on
internal controls and compliance, we assess the risk level as low. Nevertheless, the
Mission continues to take appropriate measures to ensure compliance by its contractors
and grantees, to ensure that management decisions are promptly agreed with RIG and
to pursue closure of recommendations within targeted deadlines.




                                                                                    10
